                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Policy on
                     Financing Local Reserves
                     Needs Revision
                     Report No. 12-P-0231               January 25, 2012




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors: 	                             Robert Adachi
                                                   Janet Kasper
                                                   Janet Lister
                                                   Lela Wong




Abbreviations

CFR          Code of Federal Regulations
CWSRF        Clean Water State Revolving Fund
DWSRF        Drinking Water State Revolving Fund
EPA          U.S. Environmental Protection Agency
OMB          Office of Management and Budget
SRF          State Revolving Fund




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              12-P-0231
                                                                                                      January 25, 2012
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Policy on Financing Local Reserves
The U.S. Environmental
                                    Needs Revision
Protection Agency (EPA)
Office of Inspector General          What We Found
performed this audit as a result
of observations made during an      EPA policy that allows states to use SRF funds to establish local reserve accounts
audit of Special Appropriations     conflicts with other regulations. Office of Water Policy Memorandum SRF 91-08
Act Project grants. Based on        says: “These local reserve accounts, which are used to secure loan repayments,
that review, we assessed EPA’s      are eligible costs of the SRF.” However, the financing of local reserve accounts
policy that allows states to use    does not represent eligible incurred project costs, a requirement for cash draws
revolving fund capitalization       from the federal capitalization grants per the Code of Federal Regulations. When
grants to fund local reserve        EPA allows use of funds for local reserves, funding is not available for needed
accounts.                           wastewater and drinking water projects.

Background                           What We Recommend

The Clean Water Act and the         We recommend that the Assistant Administrator for Water rescind guidance
Safe Drinking Water Act             allowing federal funds to be used to finance local reserve accounts. The Agency
authorize EPA to award grants       stated that it does not believe that any state SRF programs are currently drawing
to states that have established     federal funds to finance local reserves, but would issue a memorandum to the
Clean Water and Drinking            states with instructions that only non-federal SRF funds may be used to finance
Water State Revolving Fund          local reserves.
(SRF) programs. States use
these grants to capitalize a
revolving fund from which
low-cost loans and other types
of assistance are provided to
finance infrastructure projects.




For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20120125-12-P-0231.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                THE INSPECTOR GENERAL




                                         January 25, 2012

MEMORANDUM

SUBJECT:	 EPA Policy on Financing Local Reserves Needs Revision
          Report No. 12-P-0231


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Nancy Stoner
               Acting Assistant Administrator for Water


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains a finding that describes the
problems the OIG has identified and corrective actions the OIG recommends.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendation with milestone dates. Therefore, a response to the final report is not required.
The Agency should track corrective actions not implemented in the Management Audit Tracking
System. We have no objections to the further release of this report to the public. The report will
be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Janet Kasper at (312) 866-3059 or kasper.janet@epa.gov.
EPA Policy on Financing Local Reserves                                                                                         12-P-0231
Needs Revision


                                      Table of Contents 

   Purpose .......................................................................................................................   1


   Background .................................................................................................................      1


   Scope and Methodology.............................................................................................                2


   EPA Guidance Results in Unallowable Use of Federal Funds................................                                          2


   Recommendation ........................................................................................................           3


   Agency Response and OIG Evaluation.....................................................................                           3


   Status of Recommendations and Potential Monetary Benefits..............................                                           4




Appendices
   A       Agency Response to Draft Report....................................................................                       5


   B       Distribution .........................................................................................................    6

Purpose
                 The primary objective of our audit was to determine whether EPA’s policy on the use
                 of federal funds to establish local reserve accounts conflicts with other regulations.
                 The audit was performed as a result of observations made during an audit of Special
                 Appropriations Act Project grants. Based on that review, we assessed EPA’s policy
                 that allows states to use revolving fund capitalization grants to fund local reserve
                 accounts.

Background

                 The Clean Water Act and the Safe Drinking Water Act authorize the U.S.
                 Environmental Protection Agency (EPA) to award grants to states to capitalize
                 Clean Water State Revolving Fund (CWSRF) and Drinking Water State Revolving
                 Fund (DWSRF) programs. The revolving funds are used to issue low-cost loans
                 and other types of assistance to finance infrastructure projects.

                 The funding sources for the CWSRF and DWSRF loans include federal
                 capitalization grants, state matching funds, loan repayments, fund interest
                 earnings, and leveraged funds (e.g., the sale of bonds by the program for
                 additional capital). States are required to provide matching funds equivalent to
                 20 percent of the federal capitalization grant. States meet the match requirement
                 from general fund monies or from the sale of general obligation bonds1 or revenue
                 bonds.2 General obligation bonds are repaid from the state’s general taxation and
                 are guaranteed by the full faith and credit of the state. In contrast, revenue bonds
                 are repaid and guaranteed solely by State Revolving Fund (SRF) program
                 revenues. Because revenue bonds are guaranteed only by the states’ SRF
                 programs and not by the states, these bonds are considered to be of greater risk of
                 default. For this reason, trustees3 demand additional protection by requiring local
                 reserve funds to be established. These reserve funds can be used by the trustee in
                 the event of a default.

                 The Office of Inspector General is not questioning the validity of the existence of
                 local reserve accounts; rather, the issue is that states may be using federal funds to
                 establish the local reserve accounts to meet the trustees’ requirements.




1
  General obligation bonds are bonds secured by a pledge of the issuer’s taxing powers. These bonds are considered
to be the most secure of all municipal debt.
2
  Revenue bonds are municipal bonds whose debt service is payable solely from the revenues derived from operating
the facilities acquired or constructed with the proceeds of the bonds.
3
  A trustee is a bank designated as the custodian of funds and official representative of bondholders. Trustees are
appointed to ensure compliance with the trust indenture and represent bondholders to enforce their contract with the
issuer.


12-P-0231                                                                                                         1
Scope and Methodology
                   We conducted this performance audit in accordance with generally accepted
                   government auditing standards. Those standards require that we plan and perform
                   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
                   for our findings and conclusions based on our audit objectives. We believe that
                   the evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives. We conducted our audit work from
                   January 2008 to November 2011.4 We examined EPA’s policy for local reserve
                   accounts and reviewed other federal and EPA regulations.

EPA Guidance Results in Unallowable Use of Federal Funds
                   EPA policy that allows states to use SRF funds to establish local reserve accounts
                   conflicts with other regulations. Office of Water Policy Memorandum SRF 91-08
                   says: “These local reserve accounts, which are used to secure loan repayments,
                   are eligible costs of the SRF.” However, the financing of local reserve accounts
                   does not represent eligible incurred project costs, a requirement for cash draws
                   from the federal capitalization grant per the Code of Federal Regulations (CFR)
                   through 40 CFR Part 35. When funds are used to finance local reserves, funding is
                   not available for needed wastewater and drinking water projects.

                   EPA regulations for the CWSRF and DWSRF identify how states may use SRF
                   funds. There is no provision in the CWSRF or DWSRF regulations for funding
                   local reserve accounts. With regard to local obligations, the regulations allow SRF
                   funds to guarantee local debt
                   obligations or purchase                  CWSRF Regulations        DWSRF Regulations
                   insurance where such action             The SRF may guarantee      A State may provide
                                                             local debt obligations      assistance by
                   would improve credit market             where such action would  purchasing insurance or
                   access or reduce interest rates.         improve credit market     guaranteeing a local
                   EPA interpreted the regulations             access or reduce        debt obligation to
                                                                 interest rates.     improve credit market
                   to allow the use of federal funds       40 CFR Part 35.3120 (c)     access or reduce
                   to establish local reserve                                            interest rates.
                   accounts. We do not agree with                                   40 CFR Part 35.3525 (d)
                   the interpretation and believe it
                   conflicts with 40 CFR Part 35.3155 (d)(2) and 40 CFR Part 35.3560 (f) that define
                   eligible incurred costs. In 1990, the EPA Office of Water issued Policy
                   Memorandum SRF 91-08 allowing all states to use federal funds to establish
                   reserve accounts. At the time, the state of Montana had requested approval to
                   fund, with SRF assistance, local reserve accounts. The reserve accounts were to
                   be used to satisfy a default, should it occur, on bonds for SRF-funded projects.
                   EPA documented its decision in policy memorandum SRF 91-08, which provided
                   national guidance to all SRF programs. EPA staff stated that they did not obtain a
                   legal review of the decision.

4
    Work was suspended on the assignment from March 2009 to August 2010 due to higher priority audit work.


12-P-0231                                                                                                    2
            We do not agree with EPA’s interpretation of the regulations for two reasons.
            First, the regulations allow federal funds to be used as a guarantee for local debt
            obligations where such action would improve credit market access or reduce
            interest rates. The use of federal funds to finance SRF reserves is not needed to
            achieve either of these purposes. Communities that obtain SRF loans have access
            to the SRF regardless of the existence of local reserve accounts, and interest rates
            in the SRF are already below market.

            Second, the CWSRF and DWSRF regulations both require cash draws from the
            federal capitalization grant to be based on incurred project costs. The requirements
            of 40 CFR Part 35.3155 (d) (2) are that “the SRF or assistance recipient must first
            incur a cost…in order to draw cash” and the requirements of 40 CFR Part
            35.3560 (f) are that “a State may draw cash through the Automated Clearing House
            for the proportionate Federal share of eligible incurred project costs.” A reserve is
            not an eligible incurred cost as there is no expense or cost involved. Instead, the
            funds are, in most cases, transferred from the SRF to an interest-bearing bank
            account which holds the funds in the form of a “reserve.” No services or goods
            have been provided.

            EPA needs to rescind its policy on local reserves. When EPA allows use of funds
            for local reserves, funding is not available for needed wastewater and drinking
            water projects.

Recommendation
            We recommend that the Assistant Administrator for Water:

               1.	 Rescind Office of Water Policy Memorandum SRF 91-08 regarding local
                   reserves.

Agency Response and OIG Evaluation
            The Agency stated that it does not believe that any state SRF programs are
            currently drawing federal funds to finance local reserves. The Agency proposed
            an alternative corrective action of issuing a memorandum to the states, by
            January 31, 2012, with instructions that only non-federal SRF funds may be used
            to finance local reserves and that such financing will not result in a cash draw
            from the federal SRF capitalization grant. The alternative corrective action will
            address the finding and recommendation.




12-P-0231                                                                                       3
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                            Planned
    Rec.    Page                                                                                           Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1      Action Official           Date      Amount      Amount

     1        3     Rescind Office of Water Policy Memorandum               O    Assistant Administrator    1/31/12
                    SRF 91-08 regarding local reserves.                                 for Water




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0231                                                                                                                                      4
                                                                                   Appendix A

                  Agency Response to Draft Report

              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY 

                           WASHINGTON, D.C. 20460 


                                                                                 OFFICE OF WATER


                                        January 4, 2012

MEMORANDUM
SUBJECT: Response to Draft Report: EPA Policy on Financing Local Reserves Needs
         Revison, Project No. OA –FY08-0067


FROM: 	        Nancy K. Stoner
               Acting Assistant Administrator

TO:    	       Melissa M. Heist
               Assistant Inspector General for Audit

Thank you for the draft report transmitted on November 30, 2011, entitled, “EPA Policy on
Financing Local Reserves Needs Revision.” We appreciate the opportunity to comment on this
draft report and look forward to adequately resolving this matter.

As of today, EPA does not believe that any State SRF programs are currently drawing federal
funds to finance local reserves. However, EPA will issue a memo to State SRF programs with
instructions that only non-federal SRF funds may be used to finance local reserves, and that such
financing will not result in a cash draw from a federal SRF capitalization grant.

Again, thank you for the opportunity to respond to these findings and recommendations. If you
have any comments or questions regarding this response, please contact me or James A. Hanlon,
Director, Office of Wastewater Management, at (202) 564-0748, or Cynthia C. Dogherty,
Director, Office of Ground Water and Drinking Water, at (202) 564-3750.




12-P-0231                                                                                       5
                                                                            Appendix B

                                    Distribution
Office of the Administrator
Acting Assistant Administrator for Water
Assistant Administrator for Enforcement and Compliance Assurance
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Water




12-P-0231                                                                            6
